DEPARTMENT OF HOMELAND SECURITY
7

     Office of Inspector General

      Follow-up Review on Recommendations
    from Audit of Procedures to Detect Uranium
            in Two Smuggling Incidents
                 Unclassified Summary




                                    Office of Inspector General

                                    U.S. Department of Homeland Security




     OIG-07-30                   February 2007
                                                                       Office of Inspector General

                                                                       U.S. Department of Homeland Security
                                                                       Washington, DC 20528




              Follow-up Review on Recommendations from Audit of Procedures to
                         Detect Uranium in Two Smuggling Incidents

                               Unclassified Summary
                                   (OIG-07-30)
_________________________________________________________________________________

In September 2004, the Department of Homeland Security (DHS) Office of Inspector General (OIG)
issued an audit report titled, Effectiveness of Customs and Border Protection’s Procedures to Detect
Uranium in Two Smuggling Incidents (OIG-04-39). This audit report made four recommendations to
enhance the training and search procedures followed by Customs and Border Protection’s (CBP)
inspectors as well as the effectiveness of the radiation detection equipment. The Chairmen and
Ranking Members of four House and Senate Committees requested the OIG to determine the status
of CBP’s implementation of the recommendations.

CBP is making progress in implementing the recommendations by continuing to improve its
container examination process and radiation portal monitor operations. Specifically, it has revised its
container inspection training; installed software enhancements in Radiation Portal Monitors; is
working with the Domestic Nuclear Detection Office and DHS’ Science and Technology Directorate
officials and the Department of Energy scientists to improve the detection capability of radiation
portal monitors by evaluating the next generation of these monitors. Also, CBP continues to assess
the impact of radiation portal monitor software enhancements and the ability of the next generation
of these monitors to identify the radioisotopes that trigger alarms. CBP believes that these
technologies will increase the effectiveness of monitoring while reducing the burden that increased
equipment sensitivity levels places on its resources and the trade.

CBP’s improvements to the container inspection process and radiation detection equipment
capabilities should continue to improve, as its officers become more experienced and new
technologies are incorporated into detection equipment. CBP’s actions in response to the four
recommendations made in the initial report are adequate and we consider these recommendations
resolved and closed.
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG
web site at www.dhs.gov.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind
of criminal or noncriminal misconduct relative to department programs or
operations, call the OIG Hotline at 1-800-323-8603; write to Department of
Homeland Security, Washington, DC 20528, Attn: Office of Inspector
General, Investigations Division – Hotline. The OIG seeks to protect the
identity of each writer and caller.
